Appendix A

United States v. Peralta-Castro
United States Court of Appeals for the Fifth Circuit
May 13,2020, Filed
No. 19-20522
Reporter
804 Fed. Appx. 291 *; 2020 U.S. App. LEXIS 15300 **
UNITED STATES OF AMERICA, PlaintiffAppellee v. EDWIN JASSIEL PERALTACASTRO, Defendant-Appellant

Attorney, U.S. Attorney's Office, Southern District
of Texas, Houston, TX.
Edwin Jassiel Peralta-Castro, Defendant Appellant, Pro se, Big Spring, TX.

Notice: PLEASE REFER TO FEDERAL RULES
OF APPELLATE PROCEDURE RULE 32.1 Judges: Before DENNIS, ELROD, and DUNCAN,
GOVERNING
THE
CITATION
TO Circuit Judges.
UNPUBLISHED OPINIONS.

Opinion
Prior History: [**1] Appeal from the United
States District Court for the Southern District of [*291] PER CURIAM:*
Texas. USDC No. 4:18-CV-2581. USDC No. 4:14Edwin Jassiel Peralta-Castro, federal prisoner #
CR-356-7.
97057-379, pleaded guilty to engaging in a
United States v. Peralta-Castro, 2019 U.S. Dist.
monetary transaction in property derived from
LEXIS 92216 (S.D. Tex., June 3, 2019)
specified unlawful activity and was sentenced to
120 months of imprisonment. The district court
denied Peralta-Castro's 28 U.S.C. § 2255 motion on
the
merits without holding an evidentiary hearing.
Disposition: COA DENIED; AFFIRMED.
Peralta-Castro now seeks a certificate of
appealability (COA). He contends that his attorney
rendered ineffective assistance by failing to
correctly explain his potential sentencing exposure
[*292] before advising him to plead guilty and
Core Terms
advising Peralta-Castro that he would be facing a
guidelines range of 15-21 months at most, and by
evidentiary, Sentencing, Guidelines, movant
making legally baseless arguments based on his

Counsel: For United States of America, Plaintiff Appellee: Carmen Castillo Mitchell, Assistant U.S.

'Pursuant to 5th ClR. R. 47.5, the court has determined that this
opinion should not be published and is not precedent except under
the limited circumstances set forth in 5th Cir. R. 47.5.4.

Page 2 of 2
804 Fed. Appx. 291, *292; 2020 U.S. App. LEXIS 15300, **1

misunderstanding of the Sentencing Guidelines in
the [**2] district court and on appeal. He also
argues that the district court erred by not holding an
evidentiary hearing on his claims.
We will grant a COA only when the movant "has
made a substantial showing of the denial of a
constitutional right." 28 U.S.C. § 2253(c)(2); see
Miller-El v. Cockrell, 537 U.S. 322, 336, 123 S. Ct.
1029, 154 L. Ed. 2d 931 (2003). Where the district
court has denied relief on the merits, the movant
"must demonstrate that reasonable jurists would
find the district court's assessment of the
constitutional claims debatable or wrong" or that
"the issues presented were adequate to deserve
encouragement to proceed further." Slack v.
McDaniel, 529 U.S. 473, 484, 120 S. Ct. 1595, 146
L. Ed. 2d 542 (2000) (internal quotation marks and
citation omitted). Peralta-Castro has not made the
requisite showing. See id.
We construe the motion for a COA with respect to
the district court's failure to hold an evidentiary
hearing as a direct appeal of that issue, see Norman
v. Stephens, 817 F.3d 226, 234 (5th Cir. 2016), and
affirm.
COA DENIED; AFFIRMED.

End of Document

Appendix B

United States v. Peralta-Castro
United States District Court for the Southern District of Texas, Houston Division
June 3, 2019, Decided; June 3, 2019, Filed, Entered
CIVIL ACTION NO. H-l 8-2581; (CRIMINAL NUMBER H-14-356-07)
Reporter
2019 U.S. Dist. LEXIS 92216 *; 2019 WL 2343677
UNITED STATES OF AMERICA, v. EDWIN
JASSIEL PERALTA-CASTRO

Subsequent History: Affirmed by, Certificate of
appealability denied United States v. PeraltaCastro, 2020 U.S. App. LEXIS 15300 (5th Cir.
Tex., May 13, 2020)

Judges: SIM LAKE, UNITED STATES
DISTRICT JUDGE.

Opinion by: SIM LAKE

Opinion
Prior History: United States v. Peralta-Castro,
2015 U.S. Dist. LEXIS 146765 (S.D. Tex., Oct. 23,
2015)

Core Terms
sentence, Guidelines, narcotics, certificate,
currency, maximum, compartment, replied,
imprisonment, ineffective, Probation, cellular,
Vacate, hidden

Counsel: [*1] Edwin Jassiel Peralta-Castro,
Petitioner, Pro se, Big Spring, TX.
For United States, Respondent: Appellate Division,
LEAD ATTORNEY, U.S. Attorney's Office,
Houston, TX; Seth Christian Gagliardi, LEAD
ATTORNEY, United States Attorney's Office,
Southern District of Texas, Houston, TX.

MEMORANDUM OPINION AND ORDER
The defendant, Edwin Jassiel Peralta-Castro, has
filed a Motion Under 28 U.S.C. § 2255 to Vacate,
Set Aside, or Correct Sentence By a Person in
Federal Custody ("§ 2255 Motion") (Docket Entry
No. 576) and Petitioner's Memorandum of Law and
Supporting Appendix in Support of Motion to
Vacate, and/or Set-Aside Conviction Pursuant to
Title 28 U.S.C. § 2255 ("Memorandum of Law")
(Docket Entry No. 577).1 The government has filed
United States' Response to Peralta-Castro's Motion
for Relief Under 28 U.S.C. § 2255 and Motion for
Judgment on the Record ("United States'
Response") (Docket Entry No. 600), and PeraltaCastro has filed Peralta's Reply to the United States
Response In Opposition to Title 28 U.S.C. § 2255
("Defendant's Reply") (Docket Entry No. 605). The

1 Although a Civil Action Number has been assigned to the 2255
Motion, all docket entries referenced are to Criminal No. H-14-356.
For purposes of identification all page citations refer to the page
number imprinted by the court's electronic filing system, CM/ECF.

Page 2 of 9
2019 U.S. Dist. LEXIS 92216, *1

court has carefully reviewed all of the parties'
arguments. Based on this review, the court's
recollection of the relevant proceedings, and the
application [*2] of governing legal authorities, the
pending § 2255 Motion will be denied and the
corresponding Civil Action No. H-l8-2581 will be
dismissed for the reasons explained below.
I. Background

Manual.7 The Probation Office determined that
Peralta-Castro's base offense level score was 34
based on the amount of controlled substances
attributable to his relevant conduct, which involved
loading vehicles with narcotics in concealed
compartments on multiple occasions.8 With a onelevel increase for specific offense characteristics
under U.S.S.G. § 2S 1.1(b) (2)(A), which applies to
convictions under 18 U.S.C. § 1957, and a
reduction of three levels for acceptance of
responsibility, Peralta-Castro's total offense level
was 32.9 Because Peralta-Castro had no criminal
history points, he faced a potential range of 121 151 months in prison under the Guidelines.
Because the statute for the offense of conviction, 18
U.S.C. § 1957, had a maximum term of 10 years,
the Probation Office recommended a sentence of
120 months' imprisonment. The court denied
defense counsel's objections to the PSR and
sentenced Peralta-Castro to serve 120 months'
imprisonment10 followed by a three-year term of
supervised release.11

Peralta-Castro was charged along with several
codefendants in connection with a conspiracy to
possess with intent to distribute 1 kilogram or more
j
of heroin and 50 grams or more
methamphetamine.2 On April 7, 2016, the
government filed a Superseding Information,
charging Peralta-Castro with engaging in monetary
transactions in property derived from unlawful
activity in violation of 18 U.S.C. § 1957.3
Specifically, the Superseding Information charged
Peralta-Castro with purchasing a 2007 Honda Pilot
Sport Utility Vehicle with proceeds derived from
the distribution of controlled substances in violation Peralta-Castro challenged his sentence on direct
of 21 U.S.C. § 841(a).4
appeal, arguing that the court erred when it found
Peralta-Castro waived a formal indictment on the him accountable [*4] for aiding and abetting a
charges in the Superseding Information and entered drug trafficking offense as relevant conduct and by
a guilty plea on May 12, 2016, pursuant to a written denying him a reduction in sentence for having a
Plea Agreement.5 In exchange for his plea, the mitigating role. The Fifth Circuit rejected Peraltagovernment agreed to dismiss the drug-trafficking Castro's arguments and affirmed the sentence in an
charges against him in the Superseding Indictment unpublished opinion. See United States v. PeraltaCastro. 699 F. App'x 407 (5th Cir. Oct. 26, 2017)
and not to oppose a decrease in sentence if he
clearly accepted responsibility for his role in the (per curiam).12 The Supreme Court denied PeraltaCastro's petition for a writ of certiorari on February
drug-trafficking conspiracy. [*3] 6
26, 2018. See Peralta-Castro v. United States. 138
The Probation Office prepared a Presentence
Investigation Report ("PSR") using the 2015
edition of the United States Sentencing Guidelines 7psr, Docket Entry No. 346, p. 7 n 18.
8 Id, at 6 H 12 and 7-81) 19.
2 Superseding Indictment, Docket Entry No. 51, p. 2.

914 at 8

20-28.

3 Superseding Information, Docket Entry No. 276.
10ld. at 12 fl56-57.
4 Id.

5 Waiver of Indictment, Docket Entry No. 285, pp. 1-2; Plea
Agreement, Docket Entry No. 286, pp. 1-14.
6 Plea Agreement, Docket Entry No. 286, pp. 4-5.

11 Sentencing Transcript, Docket Entry No. 464, p. 6; Judgment in a
Criminal Case, Docket Entry No. 425, pp. 2-3.
12 Slip Opinion in Appeal No. 16-20833, Docket Entry No. 566, pp.
1-3.

Page 3 of 9
2019 U.S. Dist. LEXIS 92216, *4

S. Ct. 1179, 200 L. Ed. 2d 325 (2018).
Peralta-Castro now seeks relief under 28 U.S.C. §
2255 arguing that he was denied effective
assistance of counsel because his defense attorney
failed to properly research his "sentencing exposure
before advising him to plead guilty, "13 The
government argues that Peralta-Castro is not
entitled to relief and that the § 2255 Motion must
be denied because his claims lack merit.14
II. Standard of Review
A prisoner serving a sentence imposed by a federal
court "claiming the right to be released upon the
ground that the sentence was imposed in violation
of the Constitution or laws of the United States . . .
may move the court which imposed the sentence to
vacate, set aside or correct the sentence." 28 U.S.C.
§ 2255(a). If the court concludes that the prisoner's
motion is meritorious, it must "vacate and set the
judgment aside and shall discharge the prisoner or
resentence [*5] him or grant a new trial or correct
the sentence as may appear appropriate." 28 U.S.C.
§ 2255(b).
A prisoner seeking relief under 28 U.S.C. § 2255
"must clear a significantly higher hurdle" than the
standard that would exist on direct appeal. United
States v. Fradv. 456 U.S. 152, 102 S. Ct. 1584,
1593, 71 L. Ed. 2d 816 (1982). After a conviction
has been affirmed on appeal, a court is "entitled to
presume that the defendant stands fairly and finally
convicted." United States v. Willis. 273 F.3d 592,
595 (5th Cir. 2001) (citations omitted). For this
reason, "Relief under 28 U.S.C.A. § 2255 is
reserved for transgressions of constitutional rights
and for a narrow range of injuries that could not
have been raised on direct appeal and would, if
condoned, result in a complete miscarriage of
justice." United States v. Vaughn, 955 F.2d 367,
368 (5th Cir. 1992).

13 § 2255 Motion, Docket Entry No. 576, p. 4.
14 United States' Response, Docket Entry No. 600, pp. 22-30.

Mindful of the defendant's pro se status, the court
has liberally construed his § 2255 Motion and
related filings. See Estelle v. Gamble. 429 U.S. 97,
97 S. Ct. 285, 292, 50 L. Ed. 2d 251 (1976) ("[A]
pro se document is to be liberally construed.");
Haines v. Kerner. 404 U.S. 519, 92 S. Ct. 594, 596,
30 L. Ed. 2d 652 (1972) (per curiam) (stating that
pro se pleadings are held "to less stringent
standards than formal pleadings drafted by
lawyers"). Nevertheless, a pro se petitioner's "mere
conclusory allegations on a critical issue are
insufficient to raise a constitutional issue." United
States v. Woods. 870 F.2d 285, 288 n.3 (5th Cir.
1989) (citing Ross v. Estelle, 694 F.2d 1008, 1012
(5th Cir. 1983)).
III. Discussion

A. Ineffective Assistance of Counsel
The Sixth Amendment to the United States
Constitution guarantees criminal defendants the
right to effective assistance of counsel. See
Yarborough v. Gentry. 540 U.S. 1, 124 S. Ct. 1, 4,
157 L. Ed. 2d 1 (2003). "The benchmark [*6] for
judging any claim of ineffectiveness must be
whether counsel's conduct so undermined the
proper functioning of the adversarial process that
the trial cannot be relied on as having produced a
just result." Strickland v. Washington. 466 U.S.
668, 104 S. Ct. 2052, 2064, 80 L. Ed. 2d 674
(1984). A defendant asserting ineffective assistance
of counsel therefore must demonstrate that (1)
counsel's performance was deficient and (2)
counsel's deficient performance prejudiced the
defense. Id "Failure to prove either deficient
performance or actual prejudice is fatal to an
ineffective assistance claim." Carter v. Johnson.
131 F.3d 452, 463 (5th Cir. 1997). "A court need
not address both components of the inquiry if the
defendant makes an insufficient showing on one."
Armstead v. Scott. 37 F.3d 202, 210 (5th Cir.
1994).

Page 4 of 9
2019 U.S. Dist. LEXIS 92216, *6

"The performance prong of Strickland requires a
defendant to show that counsel's representation fell
below an objective standard of reasonableness."
Lafler v. Cooper. 566 U.S. 156, 132 S. Ct. 1376,
1384, 182 L. Ed. 2d 398 (2012) (internal quotation
marks and citation omitted). "Therefore, courts may
not fall prey to 'the distorting effect of hindsight'
but must be 'highly deferential' to counsel's
performance." Carter, 131 F.3d at 463 (quoting
Strickland, 104 S. Ct. at 2065-66). "Hence, there is
a strong presumption that the performance 'falls
within the wide range of reasonable professional
assistance.'" Id. (same). The burden is on the
defendant to overcome this presumption. Id.

B. The Defendant's Ineffective-Assistance
Claims

Peralta-Castro contends that his defense counsel
(Adrian [*8] Almaguer) was deficient for failing to
research his potential sentencing exposure under
the Guidelines and the applicable statutory
maximum for the charged offense, 18 U.S.C. §
1957, before advising him to plead guilty.15 He
alleges that his defense counsel "misunderstood the
Guidelines and advised [him] that he faced at most
15 to 21 months in prison, and to therefore plead
guilty. "16 He alleges that he was prejudiced
because, but for the alleged deficiency in his
To establish [*7] Strickland prejudice a defendant counsel's representation, he would have plead not
must show that there is "a reasonable probability guilty and insisted on a trial.17
that, but for counsel's unprofessional errors, the
result of the proceeding would have been As support for his claim Peralta-Castro provides his
different." Strickland. 104 S. Ct. at 2068. The own affidavit, in which he states that defense
prejudice inquiry under Strickland is altered in the counsel "assured" him that he "would be sentenced
guilty-plea context, where the defendant bears the to 15-20 months incarceration."18 He also points to
burden of demonstrating that "there is a reasonable a page from Defendant's Sentencing Memorandum,
probability that, but for counsel's errors, he would in which defense counsel argued for a Guidelines
not have pleaded guilty and would have insisted on
going to trial." Hill v. Lockhart. 474 U.S. 52, 106 S. 15 Memorandum of Law, Docket Entry No. 577, p. 15.
Ct. 366, 370, 88 L. Ed. 2d 203 (1985); see also
Premo v. Moore. 562 U.S. 115, 131 S. Ct. 733, 743, 16 Id.
178 L. Ed. 2d 649 (2011) (quoting Lockhart)'’Memorandum of Law, Docket Entry No. 577, p. 15. Peralta-Castro
A habeas petitioner must "affirmatively prove
prejudice." Strickland, 104 S. Ct. at 2067.
Conclusory allegations are insufficient to make this
showing. See Day v. Ouarterman. 566 F.3d 527,
540-41 (5th Cir. 2009). The Supreme Court has
clarified that the prejudice inquiry in the context of
a guilty plea requires a case-by-case examination of
the totality of the evidence against the defendant.
Lee v. United States. 137 S. Ct. 1958, 1966, 198 L.
Ed. 2d 476 (2017). A reviewing court should not
upset a guilty plea "solely because of post hoc
assertions from a defendant about how he would
have pleaded but for his attorney's deficiencies,"
but "should instead look to contemporaneous
evidence to substantiate a defendant's expressed
preferences." Lee, 137 S. Ct. at 1967.

argues that he need not establish prejudice because he was
constructively denied counsel as the result of his attorney's errors,
relying on United States v. Cronic. 466 U.S. 648, 104 S. Ct. 2039, 80
L. Ed. 2d 657 (1984). See Memorandum of Law, Docket Entry No.
577, pp. 19-20. He is mistaken. Prejudice is presumed under Cronic
only when a defendant is completely denied counsel during a critical
stage of the proceeding or counsel "entirely fails to subject the
prosecution's case to meaningful adversarial testing[.]" Id, at 2047
(emphasis added); Bell v. Cone. 535 U.S. 685, 122 S. Ct. 1843,
1851, 152 L. Ed. 2d 914 (2002). The presumption of prejudice
recognized in Cronic does not apply where a defendant merely
complains of poor performance by his defense counsel. See United
States v. Griffin. 324 F.3d 330, 364 (5th Cir. 2003) ("When the
defendant complains of errors, omissions, or strategic blunders,
prejudice is not presumed; bad lawyering, regardless of how bad,
does not support the per se presumption of prejudice.") (quoting
Gochicoa v. Johnson. 238 F.3d 278, 284-85 (5th Cir. 2000)). The
record refutes Peralta-Castro's claim that counsel failed to subject the
prosecution's case to meaningful adversarial testing; Cronic.
therefore, is not applicable.
18 Sworn Affidavit, Docket Entry No. 577, pp. 24-25.

Page 5 of 9
2019 U.S. Dist. LEXIS 92216, *8

calculation that would yield a total offense level
score of 14, resulting in a range of 15-21 months'
imprisonment for an offender in Criminal History
Category I.19 Peralta-Castro argues that counsel's
deficient performance is further supported by the
fact that several of his codefendants subsequently
received much lighter sentences and [*9] by the
fact that counsel raised "legally baseless"
arguments that were inadequately briefed on
appeal.20

advisory guideline range [the court] will find to be
applicable, or what sentence [the court] [*10] will
impose."25 When asked if he understood, PeraltaCastro replied, "Yes."26 The court emphasized that
Peralta-Castro would be bound by his guilty plea
even if the sentence imposed was greater than what
his attorney or anyone else may have predicted.27
Peralta-Castro responded that he understood.28 The
court specifically asked Peralta-Castro if his
counsel had told him what sentence he would
receive if he pled guilty.29 Peralta-Castro replied,
The government argues that Peralta-Castro's sworn "No."30 When the court asked if anyone else had
statements during the rearraignment proceeding told him what sentence he would receive if he pled
refute his contention that his guilty plea was not guilty, Peralta-Castro again replied, "No."31
voluntarily and knowingly made with a full
understanding that he faced a 10-year maximum The court recited the statutory elements of the
sentence and that his punishment would not be offense outlined in the Superseding Information
determined until after a PSR was prepared.21 The and the Plea Agreement, which included a factual
transcript of the rearraignment hearing confirms statement setting out Peralta-Castro's involvement
that the court expressly advised Peralta-Castro that in the offense.32 The written Plea Agreement,
he was pleading guilty to a felony that had a which also advised Peralta-Castro that the
maximum sentence of 10 years or 120 months in "statutory maximum penalty" was "imprisonment
prison.22
Peralta-Castro
replied
that
he of not more than ten (10) years" for the offense
understood.23 The court also advised Peralta-Castro found in 18 U.S.C. § 1957,33 contains the following
that there had been no determination yet about what factual basis for the plea:
his sentence would be and that a probation officer
a. In early 2013, law enforcement officials in
would prepare a PSR, which he would be given an
Houston, Texas, determined that a drug
opportunity to review and submit objections.24
trafficking organization (DTO) based in
The court also expressly addressed the Sentencing
Michoacan, Mexico, was recruiting individuals
Guidelines. The court explained to Peralta-Castro
to [*11] drive vehicles fit with hidden
that "no one knows what advisory guideline range
compartments filled with narcotics across the
the probation officer will recommend, or what
25 id.
19 Exhibit, Docket Entry No. 577, p. 26. Peralta-Castro provides only
one page and does not identify the document or provide a complete
copy, but the record reflects that the page comes from Defendant's
Sentencing Memorandum, see Docket Entry No. 340, p. 3, which
was filed with the court on October 19, 2016, months after PeraltaCastro entered his guilty plea on May 12, 2016.
20 Memorandum of Law, Docket Entry No. 577, pp. 15-16, 18.

26 Id.
27 Id.
281ft at 9.
29Ift at 11.
30Ift at 9.

21 United States' Response, Docket Entry No. 600, p. 23.
22 Rearraignment Transcript, Docket Entry No. 470, p. 7.
23 Id.
24 Id. at 8.

31 Id.
32Ift at 12-13.
33 Plea Agreement, Docket Entry No. 286, p. 1 K 2 (emphasis in
original).

Page 6 of 9
2019 U.S. Dist. LEXIS 92216, *11

Mexican border into the Southern District of
Texas. Once these vehicles entered the United
States, they were driven from Texas to their
ultimate destination, typically, New York. In
New York, the drivers would give possession
of the vehicle to a specified individual; that
individual would take the vehicle for a day or
two; and the vehicle would subsequently be
returned to the driver. At the time of the
vehicle's return, it housed United States
currency in its hidden compartment as opposed
to narcotics. The vehicle, complete with its
cache of hidden currency, would then be driven
back to Mexico.
b. As this investigation progressed, several
narcotics/bulk currency seizures in the
Southern District of Texas were linked to this
Mexican DTO. Further, a Confidential Source
(CS) working with DEA officials advised that
the DTO was operating a narcotics "stash
house" at 14907 Leila Oaks in Houston, Texas.
Via surveillance, agents determined that one of
the occupants of 14907 was the defendant,
Edwin Jassiel Peralta-Castro.
c. Ultimately, DEA investigators tied PeraltaCastro directly to several of the vehicles
utilized [* 12] by the DTO to transport
narcotics and/or narcotics proceeds. The first
vehicle tied to Peralta-Castro was a Volvo
observed by police on June 3, 2013, at 14907
Leila Oaks. The following day, M.S. was
stopped in Beaumont, Texas, driving this
Volvo.34 Police ultimately searched the Volvo,
locating approximately sixteen kilograms of
methamphetamine secreted inside a hidden
compartment. M.S. agreed to cooperate with
officials and would have testified at trial that on
June 3, 2013, she gave the Volvo to PeraltaCastro, who had the vehicle in his possession
for several hours. Peralta-Castro subsequently
returned the Volvo to M.S. later that evening at

34 This Volvo was previously registered to A.O. and codefendant
Christopher Clark (Clark).

Whataburger, providing M.S. with travel
money to go to Atlanta as well.35 Phone tolls
also confirmed cellular contact between M.S.
and the cellular device of Peralta-Castro
multiple times during this period.
d. In addition, on June 7, 2013, A.O. and co­
defendant Christopher Clark were arrested in
Rosenberg, Texas, when the stop of their black
Dodge Journey SUV led to the recovery of ten
kilograms of heroin from a hidden
compartment. This Dodge Journey had also
been previously observed at 14907 Leila Oaks.
Agreeing to cooperate with officials and [*13]
willing to testify at trial, A.O. admitted to
working for the DTO for approximately three
months prior to her June 7 arrest.36 A.O. stated
that she was paid $2,000 to $3,000 dollars per
trip; that she made multiple trips from
Mexico/the border to various locations
including New York; and that on several of the
trips, A.O. dropped the "stash vehicle" off with
Peralta-Castro for a short period of time prior
to leaving Houston — and upon her return.
Clark confirmed A.O.'s information in an
interview separately conducted that day and
would likewise testify at trial that PeraltaCastro assisted with the pick-up/delivery of
DTO vehicles. In addition, Peralta-Castro's
cellular phone number was located in cellular
telephones belonging to A.O. and Clark. Phone
tolls confirmed multiple cellular contacts
between these parties during this period as
well.
e. Thereafter, agents received information from
the CS that Peralta-Castro wanted to purchase
another vehicle for the DTO to transport
narcotics and/or bulk U.S. currency.
Investigative efforts revealed that on June 20,
2013, Peralta-Castro purchased a Honda Pilot
Sport Utility Vehicle bearing Vehicle

35 Peralta-Castro was captured on surveillance
Whataburger on the evening of June 3, 2013.

footage

36 "Rodolfo" (Adolfo Aguirre Roman) personally recruited A.O.

at

Page 7 of 9
2019 U.S. Dist. LEXIS 92216, *13

Identification
Number
(YIN)
2HKYF18547H511523 [*14] from Spring
Branch Honda37 in Houston, Texas, for
$14,149.68 in cash. The day after PeraltaCastro purchased this Honda Pilot in United
States currency, the vehicle was registered to
B.H. Thereafter, on July 18, 2013, B.H. was
arrested at the United States Border Patrol
checkpoint in Sarita, Texas. At this time, the
Honda Pilot was loaded with 16 kilograms of
heroin in an aftermarket compartment located
under the vehicle.
f. At trial, the United States would have offered
testimony from the CS who specifically would
have related that Peralta-Castro purchased the
Honda Pilot for the DTO and that PeraltaCastro's source of United States currency was
the DTO. The United States would also have
presented testimony from M.S; A.O; and Clark
regarding Peralta-Castro's role with the load
vehicles and drug/money couriers as described
herein. In addition, staff from Spring Branch
Honda would have testified that PeraltaCastro paid over $10,000 in United States
currency on June 20, 2013, for the Honda Pilot
ultimately titled to B.H, a drug courier. A
photocopy of Peralta-Castro's identification,
along with all other purchase documents would
have been introduced. In addition, PeraltaCastro's tax and [* 15] employment records
would have been offered into evidence. From
these records, the jury would have learned that
Peralta-Castro did not legitimately earn
sufficient funds from which to purchase the
Honda Pilot, corroborating that the funds
presented to Spring Branch Honda were
derived from specified unlawful activity.38
Peralta-Castro
acknowledged
during
the
rearraignment hearing that he had read the Plea
Agreement, that the factual statement was true, and

that he did everything that was described in that
statement.39
The Plea Agreement contained an Addendum in
which defense counsel stated that he "fully and
carefully" explained to Peralta-Castro the
Guidelines applicable to his case and that, because
the Guidelines are "only advisory," the court could
sentence him "up to the maximum allowed by
statute per count of conviction."40 At the sentencing
hearing, Peralta-Castro acknowledged that his
attorney had reviewed the PSR with him in
Spanish, including the recommended Guidelines
range and statutory maximum term of
imprisonment.41 Although Peralta-Castro had
ample opportunity to speak at the sentencing
hearing, at no time did he indicate that he had been
told he would receive a sentence of only [*16] 1520 months or express any desire to withdraw his
guilty plea and proceed to trial 42
"It is well established that [a defendant's] '[s]olemn
declarations in open court carry a strong
presumption of verity'" or truthfulness. United
States v. Lampazianie. 251 F.3d 519, 524 (5th Cir.
2001) (quoting Blackledee v. Allison. 431 U.S. 63,
97 S. Ct. 1621, 1629, 52 L. Ed. 2d 136 (1977)).
Courts should afford "great weight to the
defendant's statements at the plea colloquy." United
States v. Cothran. 302 F.3d 279, 283-84 (5th Cir.
2002). The self-serving allegations in PeraltaCastro's § 2255 Motion, Memorandum of Law, and
affidavit that his defense counsel told him he would
receive a sentence of 15-20 months is insufficient
to overcome the presumption that applies to the
sworn statements he made in open court, where
Peralta-Castro represented that his defense counsel
had made "No" such estimate 43 See United States
v. Stumof. 827 F.2d 1027, 1030 (5th Cir. 1987)
39 Rearraignment Transcript. Docket Entry No. 470, p. 13.
40 Plea Agreement — Addendum, Docket Entry No. 286, p. 13.

37 Spring Branch Honda is a "financial institution" as defined by Title
31, United States Code, Section 5312(a)(2)(T).
38 Plea Agreement, Docket Entry No. 286, pp. 7-10 (emphasis and
footnotes, renumbered, in original).

41 Sentencing Transcript, Docket Entry' No. 464, pp. 3-4.
42Id at 4, 5.
43 Rearraignment Transcript, Docket Entry No. 470, p. 9.

Page 8 of 9
2019 U S. Dist. LEXIS 92216, *16

("[S]tatements made to the court when a guilty plea
is entered 'carry a strong presumption of verity,' and
'[t]he subsequent presentation of conclusory
allegations unsupported by specifics is subject to
summary dismissal.'") (quoting Blackledee. 97 S.
Ct. at 1629).
Peralta-Castro has provided no independent support
for his claim that he was misinformed by counsel
about his potential sentence before his guilty plea
was entered. See United States v. Fuller. 769 F.2d
1095, 1099 (5th Cir. 1985) (to be entitled to
evidentiary hearing on claim that sworn statements
during the plea proceeding were false, [*17] a
defendant must make "specific factual allegations
supported by the affidavit of a reliable third
person"). Peralta-Castro has not otherwise pointed
to any contemporaneous evidence in the record
showing that he had an inclination to withdraw his
guilty plea and proceed to trial once his sentencing
exposure was outlined in the PSR. The fact that
defense counsel argued that the Guidelines range
should be lower in Defendant's Sentencing
Memorandum, which was filed months after the
guilty plea was entered, is evidence of advocacy on
Peralta-Castro's behalf, and is not proof that
defense counsel gave misleading or incorrect
advice about the potential sentence he would
receive. Likewise, lower sentences received by less
culpable codefendants in this case are not evidence
of deficient performance on his counsel's part. In
addition, although Peralta-Castro faults his counsel
for filing an inadequate appellate brief, he does not
demonstrate that he would have prevailed on appeal
if his counsel had raised any other argument and,
therefore, he fails to establish deficient
performance or actual prejudice in that context. See
Smith v. Robbins. 528 U.S. 259, 120 S. Ct. 746,
764, 145 L. Ed. 2d 756 (2000) (establishing
ineffective assistance by counsel requires a
defendant [* 18] to show that counsel unreasonably
failed to raise a non-frivolous issue and that, but for
this failure, he would have prevailed on appeal).

his sentencing exposure. Moreover, Peralta-Castro
proposes no viable defense to the charges against
him, which were supported on substantial evidence
outlined in the factual basis for the Plea Agreement,
Because Peralta-Castro does not dispute that the
factual basis underlying his guilty plea was true, he
does not otherwise establish that, but for any
deficiency on his counsel's part, there was a
reasonable probability that he would not have
pleaded guilty and would have insisted on going to
trial. Hill. 474 U.S. at 59; see also Lee, 137 S. Ct. at
1966 (observing as a general matter that "a
defendant who has no realistic defense to a charge
supported by sufficient evidence will be unable to
carry his burden of showing prejudice from
accepting a guilty plea"). Therefore, Peralta-Castro
fails to demonstrate deficient performance or actual
prejudice, and he fails to show that he was denied
effective assistance of counsel in connection with
his guilty plea or sentence. Because Peralta-Castro
has [*19] not established a valid claim for relief,
his § 2255 Motion will be denied.
c. Request for an Evidentiary Hearing
Peralta-Castro requests an evidentiary hearing on
his ineffective-assistance claim.44 A motion brought
under 28 U.S.C. § 2255 may be denied without a
hearing if the motion, files, and records of the case
conclusively show that the defendant is not entitled
t° relief. See United States v. Bartholomew, 974
F-2d 39, 41 (5th Cir. 1992) (per curiam) (citing
United States v. Auten, 632 F.2d 478 (5th Cir.
1980)). In this case the record is sufficient to fairly
dispose of the allegations made by Peralta-Castro.
A district court need inquire no further on collateral
review. Therefore, Peralta-Castro's request for an
evidentiary hearing is DENIED,
IV. Certificate of Appealability
Rule 11 of the Rules Governing Section 2255

Thus, Peralta-Castro has not demonstrated that his
guilty plea was coerced by misinformation about
44 Defendant's Reply, Docket Entry' No. 605, pp. 1-4, 6-7.

Page 9 of 9
2019 U.S. Dist. LEXIS 92216, *19

Proceedings states that a district court "must issue
or deny a certificate of appealability when it enters
a final order adverse to the applicant." A certificate
of appealability will not issue unless the applicant
makes "a substantial showing of the denial of a
constitutional right," 28 U.S.C. § 2253(c)(2), which
requires an applicant to demonstrate "that
reasonable jurists would find the district court's
assessment of the constitutional claims debatable or
wrong." Tennard v. Dretke. 542 U.S. 274, 124 S.
Ct. 2562, 2565, 159 L. Ed. 2d 384 (2004) (quoting
Slack v. McDaniel. 529 U.S. 473, 120 S. Ct. 1595,
1604, 146 L. Ed. 2d 542 (2000)). This requires a
petitioner to show that "jurists of reason could
disagree with the [reviewing] court's [*20]
resolution of his constitutional claims or that jurists
could conclude the issues presented are adequate to
deserve encouragement to proceed further." Buck
v. Davis. 137 S. Ct. 759, 773, 197 L. Ed. 2d 1
(2017) (citation and internal quotation marks
omitted).
A district court may deny a certificate of
appealability, sua sponte. without requiring further
briefing or argument. See Alexander v. Johnson.
211 F.3d 895, 898 (5th Cir. 2000). After careful
review of the pleadings and the applicable law, the
court concludes that reasonable jurists would not
find the assessment of the constitutional claims
debatable or wrong. Because the defendant does not
allege facts showing that his claims could be
resolved in a different manner, a certificate of
appealability will be denied.

2. A certificate of appealability is DENIED.
The Clerk shall provide a copy of this
Memorandum Opinion and Order to the parties.
SIGNED at Houston, Texas, on this the 3rd day of
June, 2019.
/s/ Sim Lake
SIM LAKE
UNITED STATES DISTRICT JUDGE
FINAL JUDGMENT \*2U
For the reasons set forth in the court's
Memorandum Opinion and Order entered on this
date, this action is DISMISSED with prejudice.
For reasons stated in the court's Memorandum
Opinion and Order, a certificate of appealability is
DENIED.
This is a FINAL JUDGMENT.
The Clerk shall provide a copy of this Final
Judgment to the parties.
SIGNED at Houston, Texas, on this the 3rd day of
June, 2019.
/s/ Sim Lake
SIM LAKE
UNITED STATES DISTRICT JUDGE

V. Conclusion and Order
Based on the foregoing, the court ORDERS as
follows:
1. The Motion Under 28 U.S.C. § 2255 to
Vacate, Set Aside, or Correct Sentence By a
Person in Federal Custody filed by Edwin
Jassiel Peralta-Castro (Docket Entry No. 576)
is DENIED; and this action will be dismissed
with prejudice.

End of Document

